Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




ORDERING MEDICARE EQUIPMENT
        AND SUPPLIES

     Physician Patient Relationship




                    JUNE GIBBS BROWN
                     Inspector General

                       FEBRUARY 1999
                       OEI-02-97-00080
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York Regional Office prepared this report under the direction of John I. Molnar,
Regional Inspector General and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                  HEADQUARTERS

Lucille Cop, RN                                         Brian Ritchie
Steve Shaw                                              Barbara Tedesco
Ellen Vinkey                                            Winnie Walker
                                                        Stuart Wright
Carmen Sanchez, Administration on Aging


      To obtain copies of this report, please call the New York Regional Office at (212) 264-2000.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                   EXECUTIVE                        SUMMARY


PURPOSE
      To determine whether the relationship between the physician and the patient affects the
      certification for Medicare medical equipment and supplies


BACKGROUND
      We are undertaking two studies to look at the role of the physician in certifying non-
      physician services. The first report, “Ordering Medicare Equipment and Supplies,
      Physician Perspectives” OEI-02-97-00081 is about physicians’ perceptions of the
      certification process for durable medical equipment, prosthetics, orthotics, and supplies
      (DMEPOS). This second report looks at the relationship between the physician and the
      patient and its’ effect on the certification of medical equipment and supplies.

      In general, Medicare recognizes the physician as the key figure in determining the
      appropriate utilization of all medical services. Accordingly, Medicare requires that
      payment for certain non-physician services, such as medical equipment and supplies are
      conditional on the existence of a physician’s order or certificate of medical necessity which
      must be kept on file by the supplier. This report is based on the analysis of questionnaires
      sent to physicians who certified a sample of 1,000 medical equipment or supply items, a
      review of claims histories and medical records associated with those 1,000 medical
      equipment and supply items, telephone interviews with a sub-sample of 200 patients, a
      review of the certificates of medical necessity or physician’s orders submitted by the
      suppliers and interviews with the 4 durable medical equipment regional carriers.


FINDINGS

Most Medical Equipment and Supplies are Prescribed by the Treating Physicians,
But Some Problems Are Identified

      The referring physicians for 89 percent of the items billed knew and treated the patients
      for whom they ordered medical equipment and supplies. Of the remaining 11 percent we
      determined that almost one half appear to be coding errors with the unique physician’s
      identifying number. In the remaining 6 percent of cases, the physician reported not
      knowing the patient without explanation. Additionally, 13 percent of physicians who say
      they knew the patient did not order the equipment or supplies. Ninety percent of patients

   Ordering Medicare Equipment                 1                                      OEI-02-07-00080
      interviewed who received the medical equipment and supplies report being treated by the
      referring physician during the study period.

Medicare Payments Were Questionable for Fourteen Percent of the Sample
Medical Equipment and Supplies

      In nine percent of the medical records we received there was no documentation of the
      need for the equipment or supplies billed. In another four percent patients required the
      equipment when it was originally ordered but no longer needed it, patients receiving
      diabetic supplies were not insulin dependent as required by Medicare in 1996, billings
      were after the date of the patient’s death, or equipment or supplies were inappropriately
      billed to skilled nursing facilities. In one percent of the records there was sufficient
      evidence to fully prove that the equipment or supplies were unnecessary.

      Medical records are more often questioned when physicians report not ordering the
      equipment or supplies and less likely to be questioned when there was a recent encounter
      between the physician and patient.

      The questionable records represent $414 million of Medicare payments. This is a
      conservative amount because it is based on a review of the 530 of 1000 records we
      received. We did not receive an additional 470 records that we requested. The failure of
      providers to supply us with these records makes it likely that the payment error rates were
      at least equal to or may even have been greater than those we received. Thus the actual
      dollar amount of questionable Medicare payments is likely to be significantly higher than
      the amount we calculated.

Vulnerabilities Exist in the Medical Equipment and Supply Ordering Process

      Currently Medicare regulations do not require the patient’s diagnosis, the physician’s
      name, identifying number, or speciality on the claim. Because there are diagnosis or
      physician speciality driven policies, the physician’s name and identifying number are
      important in order to contact the referring physician for any information about the patient
      or to review a medical record for the appropriateness of equipment or supplies. The lack
      of an ongoing medical relationship between the durable medical equipment regional
      carriers and physicians hampers the educational efforts about supplies and equipment. The
      durable medical equipment carrier does not have physician information readily available,
      and is not responsible for educating the physicians about the Medicare requirements for
      medical equipment or supplies.




   Ordering Medicare Equipment                 2                                     OEI-02-07-00080
RECOMMENDATIONS
     We found that when the referring physician knew the patient, more appropriate medical
     equipment and supplies were ordered. Therefore we support the Health Care Financing
     Administration in its’ requirement that the referring physician be a physician who has
     treated the patient and recommend that:

         <	    the physician who orders the equipment or supplies be required to treat the patient
               prior to the order and

          <	   a systematic process be developed to assure that the supplier submits a new CMN
               or order to the DMERC when the physician changes, the equipment or supply or
               the medical need for the equipment or supply changes.

     We recognize that as a result of the Balanced Budget Act of 1997, physicians are required
     to provide diagnostic information to suppliers and the suppliers provide this information
     on claims for medical supplies and equipment when the DMERC has a medical review
     policy requiring such diagnostic information. We support this, but recommend that:

         <	    the referring physician’s name and specialty, the patient’s related diagnostic
               information be required on all claims for medical equipment and supplies.

     This report also supports the recommendation in our report entitled “Ordering Medicare
     Equipment and Supplies, Physician’s Perspectives” OEI-02-97-0081. This report
     recommended that the Health Care Financing Administration strengthen its efforts to
     educate physicians regarding their ordering of medical equipment and supplies and
     suggested the following approaches:

     <	        directing the carriers to furnish all physician providers with information about
               ordering medical equipment and supplies including any OIG Fraud Alerts. Of
               particular interest is the OIG Fraud Alert on Physician Liability for Certifications in
               the Provision of Medical Equipment and Supplies and Home Health Services
               which specifically highlights physicians’ responsibilities in making certifications for
               durable medical equipment and supplies, and the legal significance of the
               certifications. A copy of this fraud alert may be found in Appendix D;

     <	        routinely providing all physicians with any changes of coverage and payment rules
               for medical equipment and supplies;

     <	        providing all physicians with a contact person at the carriers to answer questions
               about equipment or supplies; and

     <         assuring that all certificates of medical necessity sent from the suppliers to


  Ordering Medicare Equipment                     3                                      OEI-02-07-00080
            physicians include the coverage and payment rules and cost of equipment for the
            specific equipment or supplies ordered.

   We will refer all unnecessary and questionable cases and those where the physician did not
   see the patient or did not order the equipment or supplies to the appropriate Durable
   Medical Equipment Regional Carrier for further review.

   COMMENTS

   We received comments on the draft report from HCFA. They generally concur with our
   recommendations. Based on their comments we changed one of the suggested approaches
   in our recommendations on providing physicians with information about ordering medical
   equipment and supplies by expanding it to apply to all physicians not just new ones. The
   HCFA’s comments are reproduced in Appendix E.

    We also received comments from the Assistant Secretary for Planning and Evaluation
   (ASPE). We changed the wording of another of our suggested approaches in the
   recommendations to clarify that the information about coverage and payment rules had to
   do with the specific equipment and supplies ordered rather than general guidelines.




Ordering Medicare Equipment                 4                                    OEI-02-07-00080
                        TABLE                         OF               CONTENTS



                                                                                                                              PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


FINDINGS


          Most physicians treat the patient . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Equipment and Supplies unnecessary and questionable . . . . . . . . . . . . . . . . . . . . . . . . . 13


          DMERCs note vulnerabilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


APPENDICES


          A: Confidence intervals for key questions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


          B: Medical review dollar projections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22


          C: Tests for key findings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


          D: Fraud Alert . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25


          E: Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33





      Ordering Medicare Equipment                                  5                                                   OEI-02-07-00080
                                 INTRODUCTION


PURPOSE
      To determine whether the relationship between the physician and the patient affects the
      certification for Medicare medical equipment and supplies.


BACKGROUND
      We are undertaking two studies to look at the role of the physician in certifying non-
      physician services. The first report, “Ordering Medicare Equipment and Supplies,
      Physician Perspectives” OEI-02-97-00081 is about physicians’ perceptions of the
      certification process for durable medical equipment, prosthetics, orthotics, and supplies
      (DMEPOS). This includes: wheelchairs and hospital beds; prosthetics and orthotics;
      catheters, ostomy and wound care supplies, and enteral and parenteral nutrition. For the
      purposes of our reports we refer to DMEPOS as medical equipment and supplies. In the
      first report we found that physicians are generally satisfied with the process, but would
      like it to be easier and less time consuming. They would also like more detailed rules and
      specific criteria regarding Medicare coverage and eligibility for medical equipment and
      supplies. This second report looks at the relationship between the physician and the
      patient and its’ effect on the certification of medical equipment and supplies.

      In general, Medicare recognizes the physician as the key figure in determining the
      appropriate utilization of medical services. As one component of this process, Medicare
      requires that payment for certain non-physician services, such as home health agency,
      therapy and diagnostic services, as well as medical equipment and supplies are conditional
      on the existence of a physician's order. According to Medicare regulation 42 CFR Section
      424, the provider of these services is generally responsible for obtaining the required
      physician certification and re-certification statements, and for keeping them on file for
      verification.

Medicare Expenditures for Medical Equipment and Supplies

      According to published Health Care Financing Administration (HCFA) statistics, in 1996,
      Medicare paid an estimated $4.8 billion for medical equipment and supplies under Part A
      and Part B of the program. Part A, hospital insurance, covers services which are furnished
      by hospitals, home health agencies, and skilled nursing facilities. Part B, supplementary
      medical insurance, covers a wide array of non-institutionalized care. These include


   Ordering Medicare Equipment                 6                                    OEI-02-07-00080
      physicians services, medical equipment and supplies, outpatient hospital services,
      diagnostic laboratory tests, x-rays and ambulance services.

      The HCFA administers Medicare and contracts with private insurance companies to
      process and pay claims. Contractors that process claims for Part A, such as those for
      home health agency services, are considered fiscal intermediaries. Contractors that
      process claims for Part B, such as physician visits are considered carriers. Intermediaries
      and carriers are also responsible to assure that Medicare coverage requirements are met
      before approving payment.

Medicare Durable Medical Equipment Regional Carriers (DMERCs)

      In October 1993 HCFA began processing claims for medical equipment and supplies
      through 4 durable medical equipment regional carriers (DMERCs). These 4 carriers are
      responsible for all 50 States, the District of Columbia, and Puerto Rico. These entities are
      responsible for ensuring that coverage requirements for medical equipment and supplies
      are met before approving payment. Although fiscal intermediaries also process some
      claims for medical equipment and supplies through the Part A coverage of home health
      agency services, this report will focus only on medical equipment and supplies covered by
      Part B and processed by the DMERCs.

Certification of Durable Medical Equipment

      Medicare pays for medical equipment and supplies that are ordered or prescribed by a
      treating physician and is appropriate for the patients' diagnosis and symptoms as
      determined by the DMERCs. Suppliers must obtain and keep on file a physician's order or
      prescription for all the medical equipment and supplies that they bill to Medicare. The
      supplier usually puts the name and unique physician identification number (UPIN) of the
      referring physician and the patient’s diagnosis related to the equipment or supplies ordered
      on the claim, but the claim will be paid without this information.

      In addition to HCFA's requirement that suppliers are required to have a physician's order
      or prescription on file for all claims for medical equipment and supplies submitted for
      reimbursement, HCFA requires that certain equipment and supplies have a document
      called a certificate of medical necessity (CMN) stating that the service or item claimed for
      reimbursement is medically necessary and reasonable. For the reimbursement of these
      items, a completed CMN must be submitted to the DMERCs, which process the claims for
      medical equipment and supplies.

      Some of the items within the following 14 groups require a CMN:

        !      hospital beds                           !    motorized wheelchairs
        !      support surfaces                        !    manual wheelchairs
        !      lymphedema pumps                        !    osteogenesis stimulators

   Ordering Medicare Equipment                 7                                       OEI-02-07-00080
         !      Transcutaneous Electrical                 !    Continuous Positive Airway
                Nerve Stimulators (TENS)                       Pressure (CPAP) devices
         !      seat lift mechanisms                      !    power operated vehicles
         !      parenteral nutrition                      !    enteral nutrition
         !      home oxygen therapy                       !    infusion pumps

       The CMNs were revised in October of 1995. They were standardized and reformatted by
       HCFA and the DMERCs. Each of the aforementioned equipment and supply groups now
       have their own CMN form.

       CMNs now have four sections: A-D. Section A is to be filled out by suppliers. Section B
       lists the clinical justifications or the medical necessity of the device. This section is not to
       be filled out by suppliers. The Durable Medical Equipment Regional Carriers prefer that a
       clinician fills out Section B, but there is no specific requirement to that effect. Section C
       contains a narrative description of all items ordered, the supplier’s charge and the
       Medicare fee schedule allowance. Section D must be signed by the physician certifying
       the medical necessity of the device. This certifying physician cannot have any financial or
       contractual relationship with the supplier of the item.

       The Omnibus Budget Reconciliation Act (OBRA) of 1990 prohibited suppliers from filling
       out the CMNs themselves. The HCFA interpreted this to mean that suppliers could fill
       out only the administrative portion of the CMN. In addition, in instances where the
       supplier initiates the process by filling out the administrative portion, HCFA requires that
       they must also send a letter to the physician indicating what their charge and Medicare's
       allowed amount for the item is.

Balanced Budget Act of 1997

       The Balanced Budget Act of 1997 requires that when an item is ordered by a physician,
       but furnished by another entity such as a supplier, the entity furnishing the item, that is the
       supplier, must provide diagnostic or other medical information in order for payment to be
       made to the supplier. The physician must provide this information to the supplier when
       the item is ordered. This is effective January 1, 1998. Physicians are required to provide
       this diagnostic information when ordering supplies when the carrier has put in place a local
       medical review policy requiring such diagnostic information from the supplier.

OIG Activities

       There have been many OIG efforts related to the utilization of non-physician services.
       The following two studies have addressed the role of physician authorization in the
       provision of these services. An OIG study entitled "The Physician's Role in Home Health
       Care" (OEI-02-94-00170) found that at least 91 percent of the physicians who certified



    Ordering Medicare Equipment                   8                                       OEI-02-07-00080
       the plan of home health care had a pre-existing relationship with the patient for whom the
       plan was designed.

       Other related OIG work includes an audit of home health agency services in California,
       Illinois, New York and Texas (A-04-94-02121) to determine whether payments for these
       fulfilled Medicare reimbursement requirements. The results of this audit showed that
       physicians did not always review or actively participate in developing plans of care they
       signed. The report said that physicians relied heavily on home health agencies to make
       homebound determinations and develop the plans of care for home health services.

METHODOLOGY

       Using a 1 percent sample of HCFA’s 1996 National Claims History (NCH) data, we
       selected a stratified, random sample of 1000 medical equipment and supply items. We
       stratified our sample between codes that require a CMN and codes that have no such
       requirement. We then further stratified the CMN codes between oxygen and non-oxygen
       items. This ensured that oxygen related items were not over-represented in our sample.

       Within the non-CMN stratum, we selected medical equipment and supply items from the
       procedure codes used for billing (HCPCS) where each item cost was more than $103 or
       where HCFA allowed more than $260,000 in 1996. These codes accounted for 96
       percent of all the medical equipment and supply items in 1996 and 99 percent of the total
       monetary amount allowed by HCFA in 1996. We further divided the 724 non-CMN
       codes into three separate groups: one containing five codes which account for 30 percent
       of all non-CMN line items; another with 20 codes which account for an additional 30
       percent; and, finally, one with the remaining non-CMN codes. This prevented any over
       representation in our non-CMN stratum. We randomly selected 200 line items from each
       of the 5 stratum for a total of 1000 items.

       From this sampling, we identified the beneficiary, his/her diagnosis, the supplier, the place
       of service, the certifying physician, and his/her specialty.

Beneficiary Histories

       Using the appropriate codes for physician visits and other medical equipment and supplies
       in the beneficiary billing histories, we determined whether the referring physician identified
       from our sampling had billed Medicare for any physician encounters in a 6 month period
       prior to date of the claim. We used this information as one source of the physician's prior
       treating relationship with the beneficiary.




    Ordering Medicare Equipment                  9                                      OEI-02-07-00080
Physician Survey and Medical Record Review

      We mailed a questionnaire to the 983 physicians certifying the equipment for the 1000 line
      items in our sample and asked them: if they have ever treated and how long they have
      known the beneficiaries for whom they certified these services; the date of their last visit
      with that beneficiary; and if they ordered the equipment or supplies. We received 695
      completed questionnaires from sample physicians.

      We also requested the 1000 relevant medical records for each of the 985 beneficiaries in
      our sample. We received 530 of the 1000 medical records requested from the physicians
      or from the facility where the physician told us the medical record was kept. We
      developed a screening instrument to review the medical records to determine whether the
      information provided supported the need for the medical equipment or supplies that was
      provided to the beneficiary. We used the HCFA requirements for reimbursing the
      particular equipment or supplies being reviewed to develop the screening instrument. This
      instrument was reviewed by the DMERCs and changed according to their suggestions.
      The screening was done by a registered nurse on the inspection team to determine whether
      information provided by the physician in the medical record supported the need for the
      medical equipment or supplies provided. The questionable medical records were referred
      to a DMERC and reviewed by their medical staff.

      We conducted a second and third mailing to non-respondents and 782 physicians
      responded to us in some form. Seven hundred and fifty-one physicians either sent in the
      questionnaire, a medical record, or both. Of the remaining 31 physicians, 20 notified us
      they are retired, and 11 directed us to a nursing home for the relevant patient information.
      The remaining physicians are non-respondents who we were either unable to locate or
      failed to respond. We were able to gather information in some form on all but 32 sample
      physicians.

Suppliers

      We identified the suppliers for each of the beneficiaries in our sample and requested
      copies of the CMNs and/or physician orders for items supplied to those beneficiaries. We
      examined these forms to determine when they were signed and whether the physician who
      signed the CMN or ordered the item is also the referring physician in our sample. We
      received 920 returns from the suppliers.

Durable Medical Equipment Regional Carrier (DMERC) Interviews

      We interviewed by telephone and on-site the appropriate carrier staff to determine how
      the physician certification requirements are overseen. We asked them to identify any
      existing prepayment screens and/or edits regarding physician authorization. We also


   Ordering Medicare Equipment                10                                      OEI-02-07-00080
      discussed their post-payment efforts in this area. Finally, we obtained and reviewed any
      policies or educational materials the carriers might have which address this issue.

Beneficiary Survey

      We selected a random sub-sample of 200 beneficiaries for telephone interviews. These
      interviews included questions regarding: who initiated the provision of the service;
      whether, and how recently, the physician who had certified the service had treated the
      beneficiary; and whether the beneficiary had received and was satisfied with the overall
      process of obtaining the equipment. We contacted and interviewed 145 beneficiaries in
      the sub-sample.

      This inspection was conducted in accordance with the Quality Standards for
      Inspections issued by the President’s Council on Integrity and Efficiency.




   Ordering Medicare Equipment                11                                     OEI-02-07-00080
                                  FINDINGS

Most medical equipment and supplies are prescribed by the
treating physician, but some problems are identified
Almost all physicians know the patient

      The referring physicians for 89 percent of the items billed knew and treated the patient for
      whom they ordered durable medical equipment and supplies. Of the remaining 11 percent
      we determined that almost half appear to be coding errors with the unique physician
      identification number (UPIN). Some of these UPIN problems include transposed numbers
      or numbers with the wrong prefix in the claim information. Often, the name of a
      completely different physician and an inappropriate specialty appear on the claim.

      With regard to the remaining cases (6 percent) the claim and the certificate of medical
      necessity or order have the physician’s name and signature but the physician reports not
      knowing the patient. This could occur for a number of reasons. The physician may not
      remember a patient who is seen in a location other than their office, such as a nursing
      home, because the records would be kept at the other site. It may have been a patient
      whom they treated years ago and ordered equipment or supplies that do not require re-
      certification or the supplier may have signed the physician’s name to complete the form.

      Over one-half (52 percent) of the physicians who did not know the patient reside in
      California, Florida, and New York compared to 23 percent for all other States. Eighteen
      percent of these physicians are general surgeons, although this physician specialty
      comprises only 4 percent in the sample. There is no pattern relative to the kinds of
      supplies and equipment billed.

      Additionally, thirteen percent of physicians who say they knew the patient did not order
      the equipment or supplies. However, a review of the certificates of medical necessity or
      orders show that the physician’s name was the same in three out of four cases. This may
      occur for a number of reasons. The doctor may not remember the patient or another
      physician in the office or an office assistant may have ordered the equipment or supplies.
      Another possibility is that the supplier signed the CMN or order.

Almost all patients know the physicians

      Ninety percent of the patients receiving medical equipment and supplies report being
      treated by the referring physician during the study period. The doctor was usually their
      regular physician (72 percent) who had treated them for several years. In many cases the
      patient continues to be treated by the physician. Ninety-six percent of the patients

   Ordering Medicare Equipment                12                                     OEI-02-07-00080
       confirmed receiving the medical equipment or supplies ordered in our sample. More than
       three-fourths (79 percent) of beneficiaries who received medical equipment or supplies
       continue to use them.

Many physicians did not treat the patient within 6 months of receiving the
equipment

       A review of Medicare data showed that 39 percent of physicians did not bill Medicare for
       a physician visit 6 months prior to the claim. Those physicians who had no encounter in
       the billing history were less likely to submit medical records than those with an encounter.
       Sixty-seven percent of those physicians who did not show an encounter sent in medical
       records compared to 85 percent who had an encounter.

       We attempted to contact those patients whose billing history showed no prior physician
       encounter and whose physician did not send in a medical record or questionnaire. We
       will refer to this group as non-respondents. While only 19 of 51 patients were contacted,
       18 out of 19 reported knowing the physician on the claim. Only one patient reported not
       knowing the physician on the claim. While wheelchairs and wheelchair accessories
       represent 12 percent of our total sample, they comprise 18 percent of the non-respondent
       group. Hospital beds represent 5 percent of our sample and 13 percent of the non-
       respondent group.



Medicare payments were questionable for fourteen percent
of the sample medical equipment and supplies
       In 9 percent of the medical records we received there was no documentation of the need
       for the equipment or supplies billed. There was no diagnosis or indication in the medical
       record that the item was ordered or received, although the diagnosis on the claim might
       have been appropriate. In many cases the documentation was scanty, seemed incomplete,
       or was sometimes difficult to read.

       In another 4 percent of records that were questionable the patient required the equipment
       when it was originally ordered, but according to the medical record the patient no longer
       had a need for it. An example is a patient who had a fractured hip and needed a
       wheelchair when she first came home from the hospital in 1995, but at the time of our
       sample billing the patient was walking independently on all surfaces according to the
       record. Nevertheless Medicare continued to pay a monthly rental for a wheelchair for her.
       Other patients were receiving diabetic supplies and were not insulin dependent as required
       by Medicare in 1996. Some items were billed after the date of the patient’s death, and
       some were inappropriately billed to patients in skilled nursing facilities. See Appendix B
       for further analysis.


    Ordering Medicare Equipment                 13                                     OEI-02-07-00080
      Despite a high non-response rate, wheelchairs and hospital beds represented a large
      proportion of questionable medical records. While wheelchairs and wheelchair accessories
      represent 12 percent of our total sample, they are 27 percent of the questionable medical
      records. Hospital beds represent 5 percent of our sample and 13 percent of the
      questionable records. Both wheelchairs and hospital beds are expensive items and are
      usually rented. They do not require re-certification unless the physician or the need for the
      equipment changes. There appears to be no established notification process when a
      patient may no longer fulfill the Medicare requirements for the item.

      In 1 percent of the medical records there was sufficient evidence to fully prove that the
      equipment or supplies were unnecessary. All but one of the medically unnecessary records
      involved oxygen. In these cases there was no indication in the medical records that the
      patients had any breathing problems or that oxygen was being used. The equipment in the
      remaining case was determined unnecessary because the physician informed us that the air
      pressure mattress was never ordered by him and the patient has no history of bedsores.
      The medical record read, ”Patient up and about as necessary.” According to the record,
      the only equipment ordered was a four pronged cane.

Questionable records represent $414 million in Medicare payments

      The 14 percent of medical records that were questionable project to $414 million. Sixty
      million of the $414 million represent the 1 percent of the records where there was
      sufficient evidence to fully prove that the equipment or supplies were unnecessary. The
      $414 million is a conservative amount because it is based on a review of only those 530 of
      1000 records we received. We did not receive an additional 470 records that we
      requested. The failure of providers to supply us with these records makes it likely that the
      payment error rates were at least equal to or may even have been greater than those we
      received. Thus the actual dollar amount of questionable Medicare payments is likely to be
      significantly higher than the amount we calculated.

Medical records are more likely to be questioned for physicians who report not
ordering the equipment or supplies

      Of the physicians who said that they know the patient but did not order the equipment or
      supplies, 22 percent of the records were questionable or unnecessary. Of the physicians
      who report ordering the equipment, only 11 percent were questioned. This difference is
      significant at the 90 percent level of confidence.

Medical records are less likely to be questioned when there was a recent
encounter between the physician and patient

      Only 12 percent of the medical records were questioned when the physician saw the
      patient in 1996 or later. Twenty-seven percent of the records were questionable or


   Ordering Medicare Equipment                 14                                     OEI-02-07-00080
      unnecessary when the physician reported not seeing the patient since 1995 or earlier. This
      difference is significant at the 90 percent level of confidence.



Vulnerabilities exist in the medical equipment and supply
ordering process
Lack of patient’s diagnosis on the claim

      Currently Medicare regulations do not require that the patient’s diagnosis be included on
      the claim, although certain items do have diagnosis requirements to determine eligibility.
      In 1996, diabetic supplies required a diagnosis of insulin dependent diabetes in order to be
      paid, although as of January 1998 the insulin dependency has been removed. They also
      note that there are policies that require a patient diagnosis of obstructive sleep apnea
      before a continuous airway pressure device is eligible for payment.

      Some of the DMERCs suggested the use of more diagnosis driven claims. This would
      facilitate more accurate claims processing. In addition to the diagnosis on the claim, one
      DMERC medical director would like to see more preauthorization or approval prior to
      supplying the item especially in the area of wheelchairs and wheelchair accessories.

Referring physician’s name or identifying number is not always on the claim

      There is no requirement that the referring physician’s name or identifying number (UPIN)
      appear on the claim and no systematic procedure exists to verify them. The DMERCs
      report that if the claim has the correct number of digits and a letter in the referring
      physician section, the number will be accepted and the claim processed. We found a
      number of different problems with the UPIN in our review. These include claims without
      any number so the referring physician could not be identified, the same number on both
      the claim and the CMN with different physicians’ names, transposed numbers or a prefix
      that gives us the name of a physician different from the patient’s physician, or a generic
      number that appears to indicate a hospital intern or resident. In all of these cases it is
      impossible to contact the referring physician for any information about the patient. One of
      the DMERCs indicated that if a physician is under sanctions, claims could be suspended by
      checking the UPIN number. In order to review a medical record for the appropriateness
      of the equipment or supplies ordered, the proper physician needs to be identified on the
      claim.

      It is also important to capture the referring physician’s specialty on the claim because
      Medicare only pays for some medical equipment and supplies when referred by certain
      physician specialties. For example, power-operated vehicles may be used as an electric
      wheelchair when prescribed by specialists in physical medicine, orthopedics, rheumatology
      or neurology.

   Ordering Medicare Equipment                15                                      OEI-02-07-00080
Difficulty identifying patient place of residence

       The DMERCs indicated that there is no way to verify the place of service on the claim
       because the name of the facility is not required by Medicare. Certain medical equipment
       and supplies are not paid for in a skilled nursing facility. The medical review in this report
       indicated that some items were inappropriately billed to beneficiaries in skilled nursing
       facilities. These included wheelchairs and IV poles. The prospective payment system’s
       implementation in skilled nursing facilities in July of 1998 will include some supplies and
       equipment. It will be essential to know if a patient is in a skilled nursing facility in order to
       process claims correctly.

Lack of ongoing medical relationship between DMERCS and physicians hampers
educational efforts

       The DMERCs usually have no ongoing relationship with the referring physicians who sign
       the orders or CMNs. The suppliers have the responsibility to maintain the order or CMN
       on file and make them available to the DMERC for review. The DMERC does not have
       physician data readily available, and is not responsible for educating the physician about
       the criteria and eligibility requirements for medical equipment and supplies. One medical
       director indicated that the weak link in the process is the physician. One suggestion made
       by the DMERC medical staff is to have the criteria and eligibility requirements on the
       CMN which the physician would then review before signing the form. One DMERC
       attempted to use suppliers to distribute new policies to physicians but it did not work.
       Without direct access to the individual physicians, DMERCs must occasionally contact the
       appropriate Part B carriers to include new policies about supplies and equipment in their
       bulletins. Other DMERCs have used seminars, contacts with State Medical Societies,
       articles, and individual phone calls and letters to educate the physicians about medical
       equipment and supplies.




    Ordering Medicare Equipment                  16                                       OEI-02-07-00080
                    RECOMMENDATIONS

   We found that when the referring physician knew the patient, more appropriate medical
   equipment and supplies were ordered. Therefore we support the Health Care Financing
   Administration in its’ requirement that the referring physician be a physician who has
   treated the patient and recommend that:

    <	       the physician who orders the equipment or supplies be required to treat the patient
             prior to the order and

        <	   a systematic process be developed to assure that the supplier submits a new CMN
             or order to the DMERC when the physician changes, the equipment or supply or
             the medical need for the equipment or supply changes.

   We recognize that as a result of the Balanced Budget Act of 1997, physicians are required
   to provide diagnostic information to suppliers and the suppliers provide this information
   on claims for medical supplies and equipment when the DMERC has a medical review
   policy requiring such diagnostic information. We support this, but recommend that:

    <	       the referring physician’s name and specialty, the patient’s related diagnostic
             information be required on all claims for medical equipment and supplies.

   This report also supports the recommendation in our report entitled “Ordering Medicare
   Equipment and Supplies, Physician’s Perspectives” OEI-02-97-0081. This report
   recommended that the Health Care Financing Administration strengthen its efforts to
   educate physicians regarding their ordering of medical equipment and supplies and
   suggested the following approaches:

   <	        directing the carriers to furnish all physician providers with information about
             ordering medical equipment and supplies including any OIG Fraud Alerts. Of
             particular interest is the OIG Fraud Alert on Physician Liability for Certifications in
             the Provision of Medical Equipment and Supplies and Home Health Services
             which specifically highlights physicians’ responsibilities in making certifications for
             durable medical equipment and supplies, and the legal significance of the
             certifications. A copy of this fraud alert may be found in Appendix D;

   <	        routinely providing all physicians with any changes of coverage and payment for
             medical equipment and supplies;

   <	        providing all physicians with a contact person at the carriers to answer questions
             about equipment or supplies; and


Ordering Medicare Equipment                    17                                      OEI-02-07-00080
Ordering Medicare Equipment   18   OEI-02-07-00080
   <	       assuring that all certificates of medical necessity sent from the suppliers to
            physicians include the coverage and payment rules and cost of equipment for the
            specific equipment or supplies ordered.

   We will refer all unnecessary and questionable cases and those where the physician did not
   see the patient or did not order the equipment or supplies to the appropriate Durable
   Medical Equipment Regional Carrier for further review.

   COMMENTS

   We received comments on the draft report from HCFA. They generally concur with our
   recommendations. Based on their comments we changed one of the suggested approaches
   in our recommendations on providing physicians with information about ordering medical
   equipment and supplies by expanding it to apply to all physicians not just new ones. The
   HCFA’s comments are reproduced in Appendix E.

    We also received comments from the Assistant Secretary for Planning and Evaluation
   (ASPE). We changed the wording of another of our suggested approaches in the
   recommendations to clarify that the information about coverage and payment rules had to
   do with the specific equipment and supplies ordered rather than general guidelines.




Ordering Medicare Equipment                19                                    OEI-02-07-00080
                                                                            APPENDIX A


         Confidence Intervals for Key Survey Questions


   We calculated confidence intervals for 12 key questions from the physician questionnaires,
   beneficiary telephone surveys, medical records, certificates of medical necessity or orders,
   and beneficiary histories. The response estimate and 95 percent confidence interval are
   given for each of the following:


   Physician survey questions

   1.	      Is the patient referred to in the enclosed letter someone that you have ever treated?
            “Yes” response estimate: 89%
            Lower interval: 87%
            Upper interval: 92%


   2.	      Approximately when did you last treat this patient in person?
            “1996" or “1997" response estimate: 88%
            Lower interval: 85%
            Upper interval: 91%


   3.	      Approximately how long have you treated this patient?
            “More than one year” response estimate: 87%
            Lower interval: 84%
            Upper interval: 90%


   4.	      Did you order the equipment or supplies referred to in the enclosed letter?
            “Yes” response estimate: 82%
            Lower interval: 79%
            Upper interval: 86%




Ordering Medicare Equipment                  20                                     OEI-02-07-00080
   Beneficiary survey questions

   5.	      Have you ever been examined by this physician?
            “Yes” response estimate: 90%
            Lower interval: 96%
            Upper interval: 85%


   6.	      Did you receive the equipment or supplies?
            “Yes” response estimate: 96%
            Lower interval: 93%
            Upper interval: 100%


   7.	      Is the physician your regular doctor or specialist you saw for a particular reason?
            “Regular doctor” response estimate: 72%
            Lower interval: 64%
            Upper interval: 81%


   8.	      Did you see the physician in 1996?
            “Yes” response estimate: 94%
            Lower interval: 89%
            Upper interval: 99%


   Medical record information

   9.	      Overall were the equipment/supplies reasonable and necessary according
            to Medicare guidelines?
            “No” response estimate: 14%
            Lower interval: 11%
            Upper interval: 17%


   Certificate of medical necessity/physician’s order information

   10.	     Is the claim physician the same as the ordering physician?
            “Yes” response estimate: 83%
            Lower interval: 80%
            Upper interval: 85%



Ordering Medicare Equipment                  21                                     OEI-02-07-00080
   11.	     Is the date on the Certificate of Medical Necessity/Order before the claimed date?
            “Yes” response estimate: 70%
            Lower interval: 67%
            Upper interval: 73%

   Beneficiary history information

   12.	     Was there billing by the referring physician in the six month period prior to the
            date
            the equipment was ordered?
            “Yes” response estimate: 61%
            Lower interval: 58%
            Upper interval: 64%




Ordering Medicare Equipment                  22                                      OEI-02-07-00080
                                                                         APPENDIX B


                    Medical Review Dollar Projections


   We used the HCFA requirements for reimbursement and a screening instrument to
   determine whether information provided by the physician in the medical record supported
   the need for the medical equipment or supplies provided. A registered nurse on the team
   completed a medical review screening instrument. Questionable cases were referred to
   and reviewed by a DMERC medical staff. Fourteen percent of medical equipment and
   supplies in our sample are medically unnecessary or questionable. The weighted allowable
   monetary amount projects to $414,396,000 + or - $120,326,900 at the 95 percent
   confidence level. See Table I below.



                                    Table I
           Medically Unnecessary or Questionable Dollar Projections

                              Sample Size             530 medical record
                                                          responses
                          Weighted Size                     487,200
                                 Total                   $414,396,000
                      Standard Error Total                $61,391,200
                    95% Confidence Interval              $120,326,900
                              Lower limit                $294,069,100
                              Upper limit                $534,722,900


   Seventy-nine medical equipment or supply items were deemed questionable or medically
   unnecessary. Wheelchairs and wheelchair accessories comprised over one-quarter of all
   questionable records. Additionally, oxygen and oxygen accessories comprised 22 percent
   of all questionable records. Table II below illustrates the breakdown of all questionable or
   medically unnecessary equipment or supplies.




Ordering Medicare Equipment                   23                                  OEI-02-07-00080
                                 Table II
       Unnecessary or Questionable Medical Equipment and Supplies

         Equipment or Supply           Number   Percent of Questionable
      Wheelchairs and accessories          21            27%
         Oxygen and accessories            17            22%
             Diabetic supplies             10            13%
               Hospital beds               10            13%
                    Other                  7             9%
         Enteral feeding supplies          5             6%
                  IV poles                 3             4%
      Alternating pressure mattress        2             3%
              Commode chair                2             3%
             Ostomy supplies               2             3%

                   Total                   79           100%




Ordering Medicare Equipment           24                          OEI-02-07-00080
                                                                              APPENDIX C


                       Statistical Tests for Key Findings


   We computed Chi-square values for three key findings. All variables were analyzed at the
   90 percent level of confidence. As shown in Table I below, all variables demonstrate
   statistically significant differences. The direction of the differences below are discussed in
   the findings of this report.


                                     Table I
              Chi-Square Values for Testing Significant Differences

             Variables                    Degrees of        Chi-Square           Significant
                                          Freedom                                Difference
    Beneficiary History vs                     2                23.95               *Yes
   Medical Records Received
Questionable Items vs When Did                 1                3.34                 Yes
the Physician Last See the Patient
    Questionable Items vs                      1                3.26                 Yes
    Did the Physician Order

   *There is a significant difference at the 95 percent level of confidence




Ordering Medicare Equipment                 25                                      OEI-02-07-00080
                                                                       APPENDIX D

       OFFICE OF
       INSPECTOR
       GENERAL


                          SPECIAL FRAUD ALERT

                                        ALERT


      PHYSICIAN LIABILITY FOR CERTIFICATIONS IN THE
    PROVISION OF MEDICAL EQUIPMENT AND SUPPLIES AND
                 HOME HEALTH SERVICES

January 1999



T    he Office of Inspector General (OIG) was established at the Department of Health
     and Human Services by Congress in 1976 to identify and eliminate fraud, waste, and
abuse in the Department’s programs and to promote efficiency and economy in
departmental operations. The OIG carries out this mission through a nationwide program
of audits, inspections, and investigations.

To reduce fraud and abuse in the Federal health care programs, including Medicare and
Medicaid, the OIG actively investigates fraudulent schemes that obtain money from these
programs and, when appropriate, issues Special Fraud Alerts that identify segments of the
health care industry that are particularly vulnerable to abuse. Copies of all OIG Special
Fraud Alerts are available on the internet at:

                       http://www.dhhs.gov/progorg/oig/frdalrt/index.htm

We are issuing this Fraud Alert because physicians may not appreciate the legal and
programmatic significance of certifications they make in connection with the ordering of
certain items and services for their Medicare patients. While the OIG believes that the
actual incidence of physicians’ intentionally submitting false or misleading certifications
of medical necessity for durable medical equipment or home health care is relatively
infrequent, physician laxity in reviewing and completing these certifications contributes
to fraudulent and abusive practices by unscrupulous suppliers and home health providers.
We urge physicians and their staff to report any suspicious activity in connection with the
solicitation or completion of certifications to the OIG.

     Ordering Medicare Equipment              26                               OEI-02-07-00080
Physicians should also be aware that they are subject to substantial criminal, civil, and
administrative penalties if they sign a certification knowing that the information relating
to medical necessity is false, or with reckless disregard as to the truth of the information
being submitted. While a physician’s signature on a false or misleading certification
made through mistake, simple negligence, or inadvertence will not result in personal
liability, the physician may unwittingly be facilitating the perpetration of fraud on
Medicare by suppliers or providers. Accordingly, we urge all physicians to review and
familiarize themselves with the information in this Fraud Alert. If a physician has any
questions as to the application of these requirements to specific facts, the physician
should contact the appropriate Medicare Fiscal Intermediary or Carrier.


THE IMPORTANCE OF PHYSICIAN CERTIFICATION FOR MEDICARE


T     he Medicare program only pays for health care services that are medically necessary.
      In determining what services are medically necessary, Medicare primarily relies on
the professional judgment of the beneficiary’s treating physician, since he or she knows
the patient’s history and makes critical decisions, such as admitting the patient to the
hospital; ordering tests, drugs, and treatments; and determining the length of treatment.
In other words, the physician has a key role in determining both the medical need for, and
utilization of, many health care services, including those furnished and billed by other
providers and suppliers.

Congress has conditioned payment for many Medicare items and services on a
certification signed by a physician attesting that the item or service is medically
necessary. For example, physicians are routinely required to certify to the medical
necessity for any service for which they submit bills to the Medicare program.

Physicians also are involved in attesting to medical necessity when ordering services or
supplies that must be billed and provided by an independent supplier or provider.
Medicare requires physicians to certify to the medical necessity for many of these items
and services through prescriptions, orders, or, in certain specific circumstances,
Certificates of Medical Necessity (CMNs). These documentation requirements
substantiate that the physician has reviewed the patient’s condition and has determined
that services or supplies are medically necessary.

Two areas where the documentation of medical necessity by physician certification plays
a key role are (i) home health services and (ii) durable medical equipment (DME).
Through various OIG audits, we have discovered that physicians sometimes fail to
discharge their responsibility to assess their patients’ conditions and need for home health
care. Similarly, the OIG has found numerous examples of physicians who have ordered
DME or signed CMNs for DME without reviewing the medical necessity for the item or
even knowing the patient.



    Ordering Medicare Equipment              27                                   OEI-02-07-00080
PHYSICIAN CERTIFICATION FOR HOME HEALTH SERVICES


M      edicare will pay a Medicare-certified home health agency for home health care
       provided under a physician’s plan of care to a patient confined to the home.
Covered services may include skilled nursing services, home health aide services,
physical and occupational therapy and speech language pathology, medical social
services, medical supplies (other than drugs and biologicals), and DME.

As a condition for payment, Medicare requires a patient’s treating physician to certify
initially and recertify at least every 62 days (2 months) that:

#       the patient is confined to the home;

#	      the individual needs or needed (i) intermittent skilled nursing care; (ii) speech or
        physical therapy or speech-language pathology services; or (iii) occupational
        therapy or a continued need for occupational therapy (payment for occupational
        therapy will be made only upon an initial certification that includes care under (i)
        or (ii) or a recertification where the initial certification included care under (i) or
        (ii));

#	      a plan of care has been established and periodically reviewed by the physician;
        and

#	      the services are (were) furnished while the patient is (was) under the care of a
        physician.

The physician must order the home health services, either orally or in writing, prior to the
services being furnished. The physician certification must be obtained at the time the
plan of treatment is established or as soon thereafter as possible. The physician
certification must be signed and dated prior to the submission of the claim to Medicare.
If a physician has any questions as to the application of these requirements to specific
facts, the physician should contact the appropriate Medicare Fiscal Intermediary or
Carrier.



PHYSICIAN ORDERS AND CERTIFICATES OF MEDICAL NECESSITY FOR
DURABLE MEDICAL EQUIPMENT, PROSTHETICS, ORTHOTICS, AND
SUPPLIES FOR HOME USE


D    ME is equipment that can withstand repeated use, is primarily used for a medical
     purpose, and is not generally used in the absence of illness or injury. Examples
include hospital beds, wheelchairs, and oxygen delivery systems. Medicare will cover

     Ordering Medicare Equipment               28                                   OEI-02-07-00080
medical supplies that are necessary for the effective use of DME, as well as surgical
dressings, catheters, and ostomy bags. However, Medicare will only cover DME and
supplies that have been ordered or prescribed by a physician. The order or prescription
must be personally signed and dated by the patient’s treating physician.

DME suppliers that submit bills to Medicare are required to maintain the physician’s
original written order or prescription in their files. The order or prescription must
include:

#       the beneficiary’s name and full address;

#       the physician’s signature;

#       the date the physician signed the prescription or order;

#       a description of the items needed;

#       the start date of the order (if appropriate); and

#	      the diagnosis (if required by Medicare program policies) and a realistic estimate of
        the total length of time the equipment will be needed (in months or years).

For certain items or supplies, including supplies provided on a periodic basis and drugs,
additional information may be required. For supplies provided on a periodic basis,
appropriate information on the quantity used, the frequency of change, and the duration
of need should be included. If drugs are included in the order, the dosage, frequency of
administration, and, if applicable, the duration of infusion and concentration should be
included.

Medicare further requires claims for payment for certain kinds of DME to be
accompanied by a CMN signed by a treating physician (unless the DME is prescribed as
part of a plan of care for home health services). When a CMN is required, the provider
or supplier must keep the CMN containing the treating physician’s original signature and
date on file.

Generally, a CMN has four sections:

#	      Section A contains general information on the patient, supplier, and physician.
        Section A may be completed by the supplier.

#       Section B contains the medical necessity justification for DME. This cannot be
        filled out by the supplier. Section B must be completed by the physician, a non-
        physician clinician involved in the care of the patient, or a physician employee.
        If the physician did not personally complete section B, the name of the person who

     Ordering Medicare Equipment               29                                OEI-02-07-00080
        did complete section B and his or her title and employer must be specified.
#	      Section C contains a description of the equipment and its cost. Section C is
        completed by the supplier.

#	      Section D is the treating physician’s attestation and signature, which certifies that
        the physician has reviewed sections A, B, and C of the CMN and that the
        information in section B is true, accurate, and complete. Section D must be
        signed by the treating physician. Signature stamps and date stamps are not
        acceptable.

By signing the CMN, the physician represents that:

#	      he or she is the patient’s treating physician and the information regarding the
        physician’s address and unique physician identification number (UPIN) is correct;

#	      the entire CMN, including the sections filled out by the supplier, was completed
        prior to the physician’s signature; and

#	      the information in section B relating to medical necessity is true, accurate, and
        complete to the best of the physician’s knowledge.


IMPROPER PHYSICIAN CERTIFICATIONS FOSTER FRAUD


U      nscrupulous suppliers and providers may steer physicians into signing or authorizing
       improper certifications of medical necessity. In some instances, the certification
forms or statements are completed by DME suppliers or home health agencies and
presented to the physician, who then signs the forms without verifying the actual need for
the items or services. In many cases, the physician may obtain no personal benefit when
signing these unverified orders and is only accommodating the supplier or provider.
While a physician’s signature on a false or misleading certification
made through mistake, simple negligence, or inadvertence will not result in personal
liability, the physician may unwittingly be facilitating the perpetration of fraud on
Medicare by suppliers or providers. When the physician knows the information is false
or acts with reckless disregard as to the truth of the statement, such physician risks
criminal, civil, and administrative penalties.

Sometimes, a physician may receive compensation in exchange for his or her signature.
Compensation can take the form of cash payments, free goods, or any other thing of
value. Such cases may trigger additional criminal and civil penalties under the anti-
kickback statute.

The following are examples of inappropriate certifications uncovered by the OIG in the
course of its investigations of fraud in the provision of home health services and medical

     Ordering Medicare Equipment              30                                  OEI-02-07-00080
equipment and supplies:

#	      A physician knowingly signs a number of forms provided by a home health agency
        that falsely represent that skilled nursing services are medically necessary in order
        to qualify the patient for home health services.

#	      A physician certifies that a patient is confined to the home and qualifies for home
        health services, even though the patient tells the physician that her only restrictions
        are due to arthritis in her hands, and she has no restrictions on her routine
        activities, such as grocery shopping.

#	      At the prompting of a DME supplier, a physician signs a stack of blank CMNs for
        transcutaneous electrical nerve stimulators (TENS) units. The CMNs are later
        completed with false information in support of fraudulent claims for the
        equipment. The false information purports to show that the physician ordered and
        certified to the medical necessity for the TENS units for which the supplier has
        submitted claims.

#	      A physician signs CMNs for respiratory medical equipment falsely representing
        that the equipment was medically necessary.

#	      A physician signs CMNs for wheelchairs and hospital beds without seeing the
        patients, then falsifies his medical charts to indicate that he treated them.

#	      A physician accepts anywhere from $50 to $400 from a DME supplier for each
        prescription he signs for oxygen concentrators and nebulizers.




POTENTIAL CONSEQUENCES FOR UNLAWFUL ACTS


A    physician is not personally liable for erroneous claims due to mistakes,
     inadvertence, or simple negligence. However, knowingly signing a false or
misleading certification or signing with reckless disregard for the truth can lead to serious
criminal, civil, and administrative penalties including:

#       criminal prosecution;

#       fines as high as $10,000 per false claim plus treble damages; or

#	      administrative sanctions including: exclusion from participation in Federal health
        care programs, withholding or recovery of payments, and loss of license or
        disciplinary actions by state regulatory agencies.

     Ordering Medicare Equipment              31                                   OEI-02-07-00080
Physicians may violate these laws when, for example:

#	      they sign a certification as a “courtesy” to a patient, service provider, or DME
        supplier when they have not first made a determination of medical necessity;

#	      they knowingly or recklessly sign a false or misleading certification that causes a
        false claim to be submitted to a Federal health care program; or

#	      they receive any financial benefit for signing the certification (including free or
        reduced rent, patient referrals, supplies, equipment, or free labor).

Even if they do not receive any financial or other benefit from providers or suppliers,
physicians may be liable for making false or misleading certifications.


WHAT TO DO IF YOU HAVE INFORMATION ABOUT FRAUD AND ABUSE
AGAINST MEDICARE OR MEDICAID PROGRAMS

If you have information about physicians, home health agencies, or medical equipment
and supply companies engaging in any of the activities described above, contact any of
the regional offices of the Office of Investigations of the Office of Inspector General,
U.S. Department of Health and Human Services, at the following locations:



Field Offices                      States Served                  Telephone


Boston	                            MA, VT ,NH, ME,                617-565-2664
                                   RI, CT


New York                           NY, NJ, PR, VI                 212-264-1691


Philadelphia	                      PA, MD, DE, WV,                215-861-4586
                                   VA, DC


Atlanta	                           GA, KY, NC, SC,                404-562-7603
                                   FL, TN, AL, MS


Chicago                            IL, MN, WI, MI,                312-353-2740

     Ordering Medicare Equipment                     32                            OEI-02-07-00080
                              IN, OH, IA, MO





Ordering Medicare Equipment                 33   OEI-02-07-00080
Dallas                            TX, NM, OK, AR,       214-767-8406
                                  LA, CO, UT, WY,
                                  MT, ND, SD, NE, KS


Los Angeles                       AZ, NV, So. CA        714-246-8302


San Francisco	                    No. CA, AK, HI        415-437-7961
                                  OR, ID, WA




    Ordering Medicare Equipment                    34                  OEI-02-07-00080
                                                                  APPENDIX E


                       Comments on the Draft Report


   We received comments from the draft report from HCFA. They concur with our
   recommendations.




Ordering Medicare Equipment            35                                 OEI-02-07-00080
Ordering Medicare Equipment   36   OEI-02-07-00080
Ordering Medicare Equipment   37   OEI-02-07-00080
Ordering Medicare Equipment   38   OEI-02-07-00080
